No. 19A.

 

 

IN THE

Supreme Court of the Anited States

LOUIS TAYLOR,
Applicant,

v.
COUNTY OF PIMA; CITY OF TUCSON,

Respondents.

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(b), I, Neal Kumar Katyal, a member of
the Bar of this Court, hereby certify that on October 28, 2019, copies of the forego-
ing Application for an Extension of Time To File a Petition for a Writ of Certiorari

were served by first-class U.S. mail, postage prepaid, to the following counsel:

Nancy J. Davis MICHELLE REBECCA SAAVEDRA
Pima County ATTORNEY’S OFFICE City OF TUCSON ATTORNEY’S
32 N. Stone Ave, Suite 2100 OFFICE

Tucson, AZ 85701 P.O. Box 27210

(520) 724-5700 Tucson, AZ 85726-7210
Counsel for Respondent (520) 791-4221

County of Pima Counsel for Respondent

City of Tucson

I further certify that all parties required to be served have been served.

Date: October 28, 2019 Liap 5 ee Lai
Neal Kumar Katyal
